<html>
<title> - DATA ACT: MONITORING IMPLEMENTATION PROGRESS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







              DATA ACT: MONITORING IMPLEMENTATION PROGRESS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                AND THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2016

                               __________

                           Serial No. 114-156

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-065 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                      Katy Rother, Senior Counsel
                          William Marx, Clerk
                 David Rapallo, Minority Staff Director
                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts
                                 ------                                

                 Subcommittee on Information Technology

                       WILL HURD, Texas, Chairman
BLAKE FARENTHOLD, Texas, Vice Chair  ROBIN L. KELLY, Illinois, Ranking 
MARK WALKER, North Carolina              Minority Member
ROD BLUM, Iowa                       GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               TAMMY DUCKWORTH, Illinois
                                     TED LIEU, California
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 19, 2016...................................     1

                               WITNESSES

Ms. Michelle Sager, Director, Strategic Issues, U.S. Government 
  Accountability Office
    Oral Statement...............................................     6
    Written Statement............................................     8
The Hon. David Mader, Controller, Office of Federal Financial 
  Management, The Office of Management and Budget
    Oral Statement...............................................    38
    Written Statement............................................    40
Mr. David A. Lebryk, Fiscal Assistant Secretary, U.S. Department 
  of the Treasury
    Oral Statement...............................................    49
    Written Statement............................................    51
Mr. Michael Peckham, Executive Director, Data Act Program 
  Management Office, U.S. Department of Health and Human Services
    Oral Statement...............................................    57
    Written Statement............................................    59

                                APPENDIX

Letter for the Record to Secretary Jacob Lew.....................    84
Letter for the Record to Mr. Shaun Donovan.......................    86

 
              DATA ACT: MONITORING IMPLEMENTATION PROGRESS

                              ----------                              


                        Tuesday, April 19, 2016

                  House of Representatives,
 Subcommittee on Government Operations, joint with 
        the Subcommittee on Information Technology,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:31 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Hurd, Walberg, Blum, 
Buck, Carter, Grothman, Connolly, Kelly, and Lieu.
    Mr. Meadows. The subcommittee on Government Operations and 
the Subcommittee on Information Technology will come to order. 
And without objection, the chair is authorized to declare a 
recess at any time. My apologies for running late to all of my 
colleagues and obviously each one of you as well.
    The American people deserve to know that their Federal tax 
dollars are being wisely spent. However, the GAO and others 
have consistently reported that Federal spending data is often 
incomplete, out of date, or inaccurate. Just last week the GAO 
told this committee that there are over 200 areas in the 
Federal Government with wasteful duplication, overlap, and 
fragmentation. OMB recently reported that Federal improper 
payments of nearly $137 billion, that's billion with a B, for 
fiscal year 2015, the largest annual total since 2004, when 
agencies first began reporting this data. Without accurate 
information, the GAO, Congress, and the American people are 
limited in their ability to prevent waste, fraud, abuse, and 
mismanagement.
    The DATA Act can help change all of that. If implemented 
properly, the DATA Act will allow us to finally know how much 
our government is spending, and that money is being spent 
wisely. In fact, before testimony to this committee in 2014, 
the GAO comptroller general said that the DATA Act is the 
single biggest thing Congress could do to address wasteful 
spending. Quite a statement. Today we are weeks away from the 
2-year anniversary of the DATA Act passage. Treasury, OMB are 
leading the implementation efforts and they're responsible for 
telling agencies what data to report and how to report it.
    Now, while OMB and the Treasury have made progress on the 
implementation, many questions are left to be answered. I've 
heard real concerns directly from the stakeholders that the 
implementation of the DATA Act is lagging behind. OMB has 
released little information on the contractor portion of the 
pilot program that is required by statute. Several guidance 
documents that the agencies need in order to implement the act, 
have not been finalized by Treasury and OMB. And without a 
clear and timely guidance, agencies may struggle to meet the 
statutory reporting timeframes.
    We're here today to determine what parts of that 
implementation are on track; where OMB, Treasury, and Federal 
agencies are falling behind; and while statutory deadlines are 
important. I want to make sure that agencies are implementing 
this bill thoroughly and correctly, not just on time.
    As recent as just an hour or so ago, I heard stories from a 
stakeholder that would suggest that the intent of Congress is 
perhaps not being best served by the direction in which we are 
going. So I look forward to working with the agencies to ensure 
that we realize the benefits of transparency in Federal 
spending that the DATA Act can certainly provide.
    I thank each of our witnesses for attending here today. I 
look forward to hearing your testimony.
    And I now recognize the ranking member of the subcommittee 
on government operations, Mr. Connolly, for his opening 
statement.
    Mr. Connolly. Thank you, Mr. Chairman. And I want to thank 
my colleagues, you of course, the other chairman, Mr. Hurd, and 
my good friend, Ms. Kelly, the other ranking member. The four 
of us, I think have a common view about the role of IT in the 
Federal Government and how we can use it as a transformative 
tool, but how we need to use it as a transformative tool.
    And I want to thank all of you for the partnership. I think 
it's made a real difference in building some cohesion within 
the Federal Government in at least this area. And it does kind 
of give a lie to the fact that we can't really get anything 
done around here and we never act in a bipartisan, indeed, 
nonpartisan way, and that, you know, at least in this case is 
not true.
    Today we revisit the Digital Accountability and 
Transparency Act, which this committee supported in a 
bipartisan basis and was signed into law 2 years ago. The DATA 
Act, if properly implemented, as the chairman just indicated, 
will bring enhanced transparency to Federal spending that will 
in turn, I hope, lead to better decisionmaking.
    Agencies will now be required to report spending at a more 
granular level, and that data is to be communicated using a 
common language that will enable true comparisons across the 
Federal Government. Agencies, Congress, watchdogs inside and 
outside of the government will now be able to connect the dots 
on how agencies are spending, which will help identify 
duplication and waste, something the committee examined last 
week with the annual GAO Duplication Report. The DATA Act holds 
great potential for creating efficiencies and government 
savings.
    While the OMB and the Treasury Department continue to make 
progress in defining those new standards, a recent GAO report 
notes that some definitions will require additional work, as 
they could lead to inconsistent reporting. I look forward to 
hearing how those concerns are being addressed, and also I want 
to hear more about the status of the pilot program to reduce 
the reporting burden on the recipients of Federal grants and 
contracts. The DATA Act directed OMB to create such a pilot 
program to streamline such reporting.
    For the grantee program, OMB partnered with the Department 
of Health and Human Services and is working with GSA on the 
contracting portion. The law also calls for input of a diverse 
group of Federal award recipients. However, GSA and OMB have 
yet to present a detailed plan to achieve this goal. As a 
Member representing a number of Federal grant recipients and 
contractors, and that's an understatement, I want to hear how 
OMB plans to better engage those communities in this effort. 
I'm hopeful that as the pilot moves forward, specific grantees 
and contractors will have that opportunity to test proposals 
that agencies might use to reduce duplicative or unnecessarily 
burdensome reporting.
    While the design of the grants pilot program appears to be 
on track, I am concerned by the GAO's assessment that OMB is 
taking a more narrow approach with respect to the contractor 
portion, focused on certified payroll reporting. For example, 
the GAO said, and I quote, ``the plan did not include specific 
information on the methodology, strategy, or types of data to 
be collected. Further, a scalability was not addressed to 
result in the recommendations that could be applied 
governmentwide. The design also did not indicate how data will 
be evaluated to draw conclusions,'' unquote.
    At this point, the procurement portion of the pilot is at 
risk of not meeting the 12-month reporting cycle deadline as 
set by Congress.
    These new DATA Act reporting requirements for agencies are 
not scheduled to be implemented until May 2017. So today's 
hearing, I think, Mr. Chairman, is the perfect opportunity to 
look at what's working so far and to examine those areas that 
might need more work a year out from that deadline.
    As my colleagues know, I was pleased to coauthor the 
Federal Information Technology Acquisition Reform Act, FITARA, 
also known as Connolly-Issa, which has a better ring to it, we 
think. GAO in its 2015 report on duplicative wasteful spending 
said, and I quote, it should improve the transparency and 
management of IT acquisitions and operations across the 
government. I think the DATA Act and FITARA will both 
complement each other and help agencies make smarter 
investments. The DATA Act holds tremendous potential.
    I look forward to hearing from today's witnesses any 
suggestions they might have for ensuring that we realize that 
potential and stay on course.
    Mr. Chairman and Mr. Hurd and Ms. Kelly, by the way, 
something we may also want to have a hearing on in terms of 
what can go awry with the best of intentions in the IT field is 
FedRAMP. And it may be time for us to have a hearing on that 
and--because this reminds me of that, though this, I hope, is 
in better shape than FedRAMP.
    With that I yield back.
    Mr. Meadows. I thank the gentleman for his comments and his 
kind words.
    The chair now recognizes the chairman of the Subcommittee 
on Information Technology, who's forgotten more about 
technology than I have ever known, the gentleman from Texas, 
Mr. Hurd, for his opening statement.
    Mr. Hurd. Thank you, Mr. Chairman. And thank you for 
including our subcommittee on this important issue. Good 
afternoon to our witnesses today.
    Yesterday was tax day in the United States, millions of 
Americans filled out their tax forms and sent a portion of 
their hard earned income to the Federal Government. In fiscal 
year 2015, the Federal Government spent $3.7 trillion, which 
amounted to about 21 percent of the Nation's gross domestic 
product. That's about $12,000 for every man, woman, and child 
in the United States. What are taxpayers getting for that 
investment in their government? Is the government spending 
their money wisely? Are there some programs that work well and 
should be expanded and others that are duplicative and should 
be eliminated?
    The unfortunate reality is that the Federal Government's 
spending data is housed in disconnected and silo systems that 
use various unrelated formats, making those questions very 
difficult to answer. And the costs of our inability to 
accurately track Federal tax dollars are steep. Chairman 
Meadows mentioned the over 200 areas in the Federal Government 
where the GAO Duplication Report identifies areas of 
duplication, overlap, and fragmentation. Eliminating these 
areas of waste and duplication would save us approximately $125 
billion from 2010 to 2025.
    The monetary cost is devastating, as is the cost of 
citizens losing trust and confidence in their own government. 
Government secrecy and corruption results in loss of trust from 
citizens, but so does general incompetence. That is why the 
DATA Act is so important. If implemented properly, the DATA Act 
will allow us to begin to untangle the web of Federal agency 
spending and start to restore trust between government and its 
citizens.
    I thank the witnesses for their testimony today. I'm 
looking forward to working with them to effectively implement 
the DATA Act.
    I yield back.
    Mr. Meadows. I thank the gentleman for his comments.
    The chair recognizes the ranking member of the Subcommittee 
on Information Technology, Ms. Kelly, the gentlewoman from 
Illinois, for her opening statement.
    Ms. Kelly. Thank you, Mr. Chairman. And thank you to our 
witnesses for appearing on today's panel to discuss the 
administration's progress in implementing the DATA Act.
    The act requires that agencies report spending data in a 
consistent way, which in turn will create opportunities to 
improve operational efficiency and oversight. The transparency 
that the DATA Act is designed to provide will help enhance 
accountability for agencies' spending decisions. Once 
implemented, the DATA Act will provide the public with Federal 
spending data that is accessible, reliable, and useable. Mr. 
Lebryk has stated at this committee, and I quote, better data 
leads to better decisions and ultimately a better government.
    The Office of Management and Budget and the Department of 
Treasury have initiated multiple efforts to carry out the 
requirements of the DATA Act. I commend the way the 
administration has embraced the act and worked diligently to 
set the executive branch on the right path.
    The Department of Health and Human Services has taken a 
significant role in designing a plan to test the pilot program 
to streamline and reduce the reporting burden on grantees. I 
look forward to hearing more about their plans for the pilot, 
some of the potential outcomes, and the timeframe for results. 
However, the procurement portion of the pilot program, which 
intends to test areas for reducing the reporting burden on 
contractors, has taken a narrow approach, focusing on only one 
area in which contractor reporting be reduced.
    In a report released today on the pilot program, GAO raised 
concerns with the design of the procurement portion and its 
ability to provide meaningful and useful data for effective 
testing of the pilot. GAO recommends that OMB clearly document 
how the procurement portion of the pilot will contribute to the 
DATA Act and requirements, and ensure the design reflects 
leading practices. It is important that congressional oversight 
helps ensure that the opportunity to reduce reporting burden 
and streamline areas of reporting is not missed during the 
implementation of the DATA Act.
    The work of Congress does not end with the passage or 
oversight of the DATA Act. It is equally important that 
Congress provide sufficient resources for Federal agencies to 
make the necessary changes to implement the DATA Act and 
transform the collection and reporting of Federal spending 
data. I look forward to hearing from the witnesses.
    I yield back.
    Mr. Meadows. I thank the gentlewoman for her opening 
remarks.
    And I will hold the record open for 5 legislative days for 
any member who would like to submit a written statement.
    Mr. Meadows. We'll now recognize our panel of witnesses. 
And I'm pleased to welcome Ms. Michelle Sager, Director of 
Strategic Issues at the U.S. Government Accountability Office. 
Ms. Sager, it is our understanding that you are accompanied by 
your colleague from GAO, Ms. Paula Rascona, who has expertise 
that we may need during questioning.
    Next we have the Honorable David Mader, controller at the 
Office of Federal Management--the Office of Management and 
Budget; Mr. David Lebryk, Fiscal Assistant Secretary of the 
U.S. Department of Treasury; and Mr. Michael Peckham, executive 
director of the DATA Act Program Management Office at the U.S. 
Department of Health and Human Services. Welcome to you all.
    And pursuant to committee rules, all witnesses will be 
sworn in before they testify. And we will also swear in Ms. 
Rascona. So if you'd please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony that you 
are about to give is the truth, the whole truth, and nothing 
but the truth?
    Thank you. Please be seated.
    And let the record reflect that all witnesses answered in 
the affirmative.
    And in order to allow time for discussion, we would 
appreciate it if you would please limit your oral testimony to 
5 minutes. However, your entire written testimony will be made 
part of the record.
    And so I will go ahead and recognize you, Ms. Sager, for 5 
minutes for your opening testimony.

                       WITNESS STATEMENTS

                  STATEMENT OF MICHELLE SAGER

    Ms. Sager. Thank you. Chairman Meadows, Chairman Hurd, 
Ranking Members Connolly and Kelly, thank you for the 
opportunity to discuss GAO's ongoing work on DATA Act 
implementation. As we heard in your opening statements, DATA 
Act holds great potential, and I'd like to take just a moment 
to talk about that potential.
    If fully and effectively implemented, the DATA Act holds 
the possibility of transforming what we know about Federal 
spending; that includes grants, contracts, and loans. This 
holds great potential for you and your work as policymakers 
considering appropriations and authorizations, for Federal 
agency officials trying to connect the dots about various 
programs, for your constituents, and for all of us as taxpayers 
trying to understand where the Federal dollars go. However, 
transforming this promise into a reality does require a very 
heavy front-end investment as well as leadership from OMB and 
Treasury in collaboration with their colleagues across the 
Federal Government.
    In my statement today, I'd like to talk about some of the 
complex technical and policy issues that have already been 
addressed, and we acknowledge that these issues are ongoing. At 
the same time, there are a number of challenges that must be 
addressed in order to assure full and effective implementation.
    I'd like to briefly highlight three specific areas: first, 
the data standards and the associated technical guidance; 
second, what Federal agencies are reporting as some of the 
challenges in their DATA Act implementation plans submitted to 
OMB; and then third, the current status of the design of the 
Section 5 pilot to reduce recipient reporting burden.
    First with regard to the data standards, OMB and Treasury 
have made considerable progress in establishing data element 
definitions for reporting on Federal spending data. However, 
more complete and timely guidance is needed in order to ensure 
consistent and comparable reporting of high quality data. A 
lack of finalized guidance to date has slowed agencies' ability 
to operationalize the data standards and the technical schema. 
It is our understanding that additional guidance is forthcoming 
very soon, and we look forward to analyzing this guidance to 
follow up on the recommendations and findings from our January 
2016 report.
    Second, with regard to what Federal agencies are reporting 
as challenges in the implementation plans they began submitting 
to OMB in September of last year, continuing through January of 
this year, these challenges fall into a couple of main 
categories, and they include competing priorities, resources, 
systems integration, and guidance.
    Agencies do also acknowledge that they have identified some 
potential mitigating strategies to mitigate these challenges, 
and these include effective communication, information sharing, 
and the opportunity to leverage existing resources. Agencies 
also reported that additional support from both OMB and 
Treasury is needed to ensure full and effective implementation.
    Third, with regard to the pilot to reduce recipient 
reporting burden, as you noted in your opening statements, OMB 
has taken action to implement the pilot in two parts, one 
focused on grants and one focused on procurement. The 
Department of Health and Human Services has been designated as 
the executing agency for the grant portion of the pilot, while 
OMB leads the procurement portion along with the General 
Services Administration. We did find that if implemented 
according to HHS's proposed design, the grants portion of the 
pilot will likely meet requirements established under the act 
and does follow leading practices for effective pilot design. 
However, as you also noted and as we state in the report that 
we're issuing today, the procurement portion of the plan does 
not document how it will contribute to meeting the act's 
requirements as well as following leading practices for 
effective design of the pilot program. We are concerned that 
the design of the procurement portion of the pilot could hinder 
effective implementation.
    GAO will continue to monitor OMB and Treasury's progress to 
address DATA Act recommendations, including those calling for a 
data governance structure, for developing a Federal program 
inventory, and for expanding two-way dialogue with stakeholders 
as implementation proceeds.
    In conclusion, almost 2 years into the DATA Act's 
implementation, we are faced with a mixed picture. Given its 
governmentwide scope and complexity, effective implementation 
of the act requires sustained progress and attention to known 
policy and technical issues. Although progress has been made in 
several areas, the challenges that we in Federal agencies have 
identified could lead to inconsistent reporting and must be 
addressed in order to ensure full and effective implementation.
    This concludes my prepared statement. I look forward to any 
questions. Thank you.
    [Prepared statement of Ms. Sager follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Mr. Meadows. Thank you, Ms. Sager.
    Mr. Mader, you're recognized for 5 minutes.


             STATEMENT OF THE HONORABLE DAVID MADER

    Mr. Mader. Thank you, Chairman Meadows, Ranking Member 
Connolly, Chairman Hurd, and Ranking Member Kelly, and members 
of the subcommittees. I appreciate the opportunity to be back 
here. As you recall, Mr. Lebryk and I were here in July of 2015 
to talk about the progress we had made on sort of almost the 
first anniversary of the DATA Act. What we'd like to do this 
afternoon is talk a little bit about the progress that we've 
made since we were last here.
    What I'd like to do is talk a little bit about the 
accomplishments over the last 9 months. First, we established 
the data definition standards for 57 data elements required 
under the DATA Act. And I do acknowledge the comment from GAO 
that this is an ongoing effort. We are really going to be 
looking on a forward-going basis at all the data elements, 
because we agree with the concern about how agencies understand 
the definition and then actually apply it so that the 
descriptors that are in USAspending accurately represent the 
spending.
    Second, we've provided additional guidance to the agencies 
on the initial guidance that was issued in May of 2015. In 
December of this past year, 2015, I issued an OMB controller 
alert that actually emphasized and provided some additional 
direction to that previous guidance.
    Third, as part of the President's fiscal year 2017 budget 
proposal, we did actually receive implementation plans, which 
GAO has reviewed and commented on. It's also to note that in 
the President's 2016 budget, we asked for a total of $92 
million to implement the DATA Act. If you recall, when the 
legislation was passed, CBO actually scored it at about $300 
million for the full implementation. Unfortunately in the 2016 
President's budget, of the $92 million that we asked for, only 
$31 million of it was appropriated, $25 million of that going 
to the Treasury Department, and rightfully so, because of the 
expansive role that they play in implementing this act, so that 
basically left about $6 million for three other agencies. In my 
written testimony in exhibit B, you'll see a table of both 2016 
as well as 2017.
    Fourth, OMB has continued to support Treasury in their 
iterative approach in developing the data schema, which I think 
we all recognize is key to successful implementation. I want to 
note, and I know my colleague is going to talk more extensively 
on this, that the approach that Treasury took and that OMB 
endorsed was basically an agile, or iterative, approach, so 
over the course of the last year, agencies actually saw at 
least four versions of the data schema, and this allowed them 
to begin to actually develop implementation plans. If we had 
taken sort of the traditional waterfall approach, what we would 
have been waiting for is actually the final guidance. So the 
fact is that we've actually, over the past year, been sharing 
with agencies the progress that we've made on the design.
    Lastly, I want to comment on the continued outreach that we 
have had both with Federal agencies as with stakeholders as 
well, external stakeholders. We have had extensive conversation 
both with stakeholders in and outside of the government, and 
our commitment is, as we move into this last year of 
implementation, we'll continue to have that exchange and 
dialogue.
    I'd like to talk now about the critical nature of the next 
year. First, it's important, and my colleague from GAO has 
testified to that, that OMB and Treasury move forward on the 
release of their documents; respective for OMB is the final 
implementation guidelines, and for Treasury, it's the data 
schema. I'm pleased to say that by the end of April or very 
early May, both of those documents will be issued in final, 
but, again, I want to emphasize that both for the schema as 
well as for the guidance, agencies have been working with us 
all along.
    Second, tracking the agency progress to implement, Dave 
Lebryk and I last week, kicked off an initiative to do 
readiness reviews of each of the agencies, each of the 24 
agencies that are covered by the DATA Act. We are personally 
leading these efforts, and last week we completed two, 
Department of Interior, Department of Energy, and actually 
tomorrow we're doing Transportation. We're going to continue to 
work with the agencies in updating their plans and milestones. 
Once all of the guidance is finalized, in the last week or two, 
agencies will begin working on implementing the revised plans.
    I think we are making progress and I am interested in 
continuing to work with the Congress in securing the resources 
that we need to fully implement the Act. I look forward to your 
questions. Thank you.
    [Prepared statement of Mr. Mader follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
    Mr. Meadows. I thank the gentleman for his testimony.
    Mr. Lebryk, you're recognized for 5 minutes.


                  STATEMENT OF DAVID A. LEBRYK

    Mr. Lebryk. Chairman Meadows and Ranking Member Connolly, 
Chairman Hurd, and Ranking Member Kelly, thank you.
    I would just echo what Dave has said is, both he and I have 
been very personally committed to making sure that the DATA Act 
is implemented in the spirit that Congress intended it to.
    This really is an important piece of legislation. I think 
it's not an understatement to say it has the ability to really 
transform the way government functions. We have a 
responsibility to taxpayers to be good stewards of their money, 
and the DATA Act, I really do believe, truly will make, you 
know, better data, better decisions, better government, and 
that will save taxpayers money.
    As we get better insights into what we're trying to do as a 
government and the programs that we have, the DATA Act, I 
think, is a really foundational piece to that better future for 
government.
    Treasury was established over 225 years ago, and we were 
established to sort of make sure we were accounting for 
government money, and Alexander Hamilton issued the first 
monthly Treasury statements to Congress in 1789, and we've been 
doing that every month since. We also issue something called 
the Daily Treasury Statement and the Financial Report of the 
United States Government, and while those are good and 
interesting documents, the DATA Act actually allows people to 
see data more specifically as it relates to decisions on a day-
to-day basis. And so this evolution is a very important one, I 
think one that will really, again, very much improve the way 
government functions.
    I will focus a little bit on Treasury's responsibilities 
with respect to three elements of the act: one is the schema, 
and I'll talk about that in a second about what that means; the 
broker; and then ultimately the newly designed USAspending Web 
site.
    Critical in the discussion of those three elements picks up 
on some points that Dave made. When we approached the design of 
these efforts, we did it with an agile user-centric approach. 
Traditionally, in my experience 25 years of government, when 
government takes on a technology project, quite often what we 
do is we sit down and we think about what the functional 
requirements are and then we go off into a corner and we build 
that system and then we kind of release it in a very linear 
fashion. This idea here was that we want to make sure that we 
were doing quick releases and agile releases so that we knew if 
we were going to fail fast, that we knew that if something 
wasn't working, we could get input and feedback from users and 
from a variety of communities to make sure we could make those 
adjustments, and this has proven critical with respect to the 
schema.
    The schema, kind of in plain language, is we've--we--Dave 
mentioned the 57 data elements that we identified. Well, we're 
actually collecting more than 57, because to get that full 
picture of Federal spending, you need more than 57, and as a 
result of that, you need to ask agencies, where are you going 
to get that information? And the approach that we took was a 
mapping and extraction process. Rather than building a new big 
system of sort of a big database, we sort of identified this 
and philosophically said we need to find out where the good 
data exists in the Federal Government, tag that data, extract 
it, and then be able to present it.
    The schema is about taking those 57 data elements as well 
as the other elements to round out that life cycle picture of 
Federal spending and then to organize it. And we've identified 
that seven files need to be submitted to the broker. The broker 
accepts those files, and then kind of validates them, and 
ultimately then prepares them, presented to the public under 
the USAspending Web site as it goes forward.
    We issued the first schema in March of last year, version 
.2, and we've issued four iterations of it since then. So while 
in December of this--we were hoping at December we would have a 
finalized version. We submitted--we issued version .7 in 
December. And that version really pretty much kind of rounded 
out the picture. In late March we issued version .1, and we 
closed the comment period in the beginning of April. As Dave 
mentioned, we're expecting to finalize the final version at the 
end--in the next several weeks. Agencies have had the 
opportunity to see that schema, they know exactly what's in it.
    We've also done something called a prototype broker, which 
is allowing the agencies to come into our sandbox to take that 
data and test it against the broker to make sure that they can 
validate whether the data is good or not. As a result, agencies 
are further along than they would be in a linear sort of 
waterfall kind of approach by using the agile process.
    So, you know, this gives us better confidence. And the 
discussions that Dave and I have had with agencies, the 
agencies are--have done the kinds of things that they need to 
do to get ready. And there are certainly challenges going 
forward, I don't want to underestimate those challenges, but 
Dave and I are both very much committed to ensuring that we're 
keeping on top of where the agencies are and making sure that 
we understand what impediments there are and facilitating the 
implementation the best we can.
    Treasury has established something called a Program 
Management Office, which is designed to actually follow through 
on a regular basis with the agencies to help them. We did an 
eight-step playbook, telling the agencies you need to do these 
certain things in order to get ready. Agencies have been 
following that playbook, and so I think that that gives me 
confidence that we're very much on the right path.
    [Prepared statement of Mr. Lebryk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Meadows. I thank you so much for your testimony.
    Mr. Peckham, you are recognized for 5 minutes.


                  STATEMENT OF MICHAEL PECKHAM

    Mr. Peckham. Thank you. Good afternoon, Chairman Meadows 
and Hurd, Ranking Members Connolly and Kelly, and distinguished 
members of the committee. I'm the director of the Department of 
Health and Human Services DATA Act Program Management Office 
within the Office of the Assistant Secretary for Financial 
Resources, or ASFR. I'm pleased to be here along with my 
colleagues to discuss HHS's activities as the executing agent 
of the DATA Act's Section 5 grants pilot.
    Under the HHS mission to enhance and protect the health and 
well-being of all Americans, various goals of the Department 
are carried out through HHS-funded grants, where services are 
provided at the local level by State and county agencies or 
through private sector grantees. In support of our mission, HHS 
awards more Federal grant dollars than any other agency.
    The DATA Act PMO is strategically located within ASFR. This 
was a natural place for our PMO to reside, given the focus of 
the DATA Act on financial data and ASFR's unique role in 
understanding the entire ward life cycle, from budget 
formulation to program policy oversight and, finally, audit 
resolution. We are working closely with all HHS operating 
divisions and staff divisions to carry out and implement the 
reporting goals set forth within the statute.
    In May of 2014, OMB asked HHS to be the executing agency 
for the grants portion of the Section 5 pilot. We are happy to 
partner with OMB taking on this role, given our past experience 
as a leader in the Federal grants community and our recognition 
that there is a valid need to reduce duplication and burden in 
recipient reporting. HHS sees this as an opportunity for 
increased recipient engagement to understand where we can find 
efficiencies in the reporting process throughout the grant's 
life cycle.
    Section 5 of the DATA Act calls for the creation of a pilot 
to develop recommendation for standardized reporting elements 
across the Federal Government, the elimination of unnecessary 
duplication in financial reporting, and the reduction of 
compliance costs for recipients of Federal awards. Based on 
this structure, HHS, worked in close coordination with OMB to 
create the Section 5 grants pilot framework, containing six 
test models. A test model is a grant tool, form, or process 
that we will analyze for improvement where the outcome will be 
documented within the final report.
    When developing the test models for the pilot, HHS 
considered three other factors in addition to the legislation: 
user feedback received during our recipient outreach efforts, 
leveraging existing system development efforts and technology, 
and minimizing the impact to pilot test participants. The first 
two tests will be performed using the Common Data Elements 
Repository Library. Through this tool, we will test the 
functionality of standard grants terminology that has been 
developed as a result of the DATA Act and the Uniform Grants 
Guidance.
    The second test is focused on better management and 
reduction of forms currently used during the grantee reporting 
process.
    The third test is consolidated Federal financial reporting. 
Here we will test the benefits of having grantees submit all 
information required for Federal for the Federal financial 
report into one system and potentially to allow the further 
sharing of that data electronically.
    The next test is based on single audit. Single audit is an 
organization-wide financial statement and Federal awards audit. 
We are testing a consolidated work flow of forms to minimize 
grantee entry of required information.
    Notice of award proof of concept is our fifth test model. 
The notice of award is a form letter or other instrument that 
provides a breadth of information the grant recipient needs to 
perform routine accounting and financial reporting. We will 
test the benefits to grantees of a standardized notice of 
award.
    And, finally, we have learned grants. The learned grants 
model is intended to be a single source of guidance regarding 
the grants life cycle.
    Our tests will provide insight into advantages for grantees 
of having this information available through one consolidated 
Web link.
    In March of 2016, HHS began testing its first model, single 
audit, and is in the process of commencing the remaining test 
models. We will have final results for all models by the May 
2017 deadline for inclusion in our report to OMB.
    On behalf of HHS, I appreciate the opportunity to testify 
today and share with you the work we've done on the Section 5 
grants pilot. We look forward to our continued partnership with 
the committee, and welcome any questions that you may have.
    [Prepared statement of Mr. Peckham follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Meadows. Thank you so much.
    The chair recognizes the gentleman from Texas, the chairman 
of the Subcommittee on Information Technology, Mr. Hurd, for a 
series of questions.
    Mr. Hurd. Thank you, Mr. Chairman.
    I always like to start these things off with a positive 
thing. When we had this hearing last time, the first question I 
asked is what is the deadline for the agencies to justify 
identifying those 57 pieces of information, and we got it done. 
So kudos. That's an important step.
    Now, the question is making sure that all the agencies are 
mapping their data to those 57 standards. And my question was--
my question was going to be, when is the finalized technical 
schema going to be made available, you all said probably in 
May, so that agencies can solidify their data plans--submission 
plans, but what I heard, Mr. Lebryk, was that some agencies are 
already doing that. Correct? How many?
    Mr. Lebryk. So when we put the eight-step implementation 
plan together, all the agencies are through the first four. 
We've had 17 or 18 of the CFO Act agencies come to the sandbox 
already to test their data.
    Mr. Hurd. Say that again. How many?
    Mr. Lebryk. Seventeen or eighteen of the 24----
    Mr. Hurd. Gotcha.
    Mr. Lebryk. --have actually come to the sandbox already and 
actually taken files and put them into the prototype broker. 
Those who have not, many of them have come back and said they 
feel pretty comfortable about where they are. Now, we want them 
to come in sooner, but that has not been a major concern to us 
yet that those other seven----
    Mr. Hurd. So the folks that have come into the sandbox, 
tested this on your test broker, what--were there problems? Did 
it work? Were you satisfied?
    Mr. Lebryk. I think when you--the first time you go through 
something like this, and I know you're very much familiar with 
this, is that when you bring data in for the first time, you 
realize that there are relationships and there are quality of 
data issues that you need to address. So those who come in 
early are quicker at getting at kind of quality issues and also 
some of the relationship issues that they need to understand 
across files.
    So that's a significant challenge for the agencies, because 
you're asking for seven different file formats, and in those 
file formats, there sometimes can be information that doesn't 
line up the right way, and so you have to go back and then 
start really working on the data, which is why, again, we've 
been very pleased that people have been coming in early rather 
than later.
    Mr. Hurd. So agencies are mapping their information to the 
57 pieces, the standards, you have a broker site that is 
functional, but the final guidance that is to be issued in May, 
what is the difference between version 7 and what is going to 
be issued in May?
    Mr. Lebryk. Some of what you--I mean, when you do kind of 
the agile process, you're taking comments back from the 
agencies and you're getting some of the feedback from the 
broker, for example, about what needs better clarity and how 
the broker can be improved, and how the schema can be improved. 
So in that process, we've been taking a lot--some of those 
comments back.
    And in the version that we released at the end of March, we 
received a good number of comments back, but we've gone through 
that list. There are none of them, in our view, which are show 
stoppers, they're more about better explanation and some 
tweaking of kind of the schema to make it work better.
    Mr. Hurd. So agencies are supposed to begin reporting data 
in a little over a year, May 2017? Are we going to hit that?
    Mr. Lebryk. The short answer is yes. A little bit more 
complicated answer, I believe, is that we will see between now 
and then about how quickly they come along in terms of how--the 
quality of their data and how quickly in some cases some of the 
issues that GAO has identified of linkages. One of the critical 
linchpins of the act is the award ID, and that is the ability 
to link data across different kinds of government activity.
    Mr. Hurd. So this is a pilot in addition to the sandbox 
that you've been running with the other 17 or 18 agencies. Is 
that correct?
    Mr. Lebryk. Correct.
    Mr. Hurd. And how did Treasury use their feedback from that 
pilot program to improve the broker?
    Mr. Lebryk. Well, I think that, you know, when you have the 
SBA, it very much encouraged us that we are on the right path. 
And so when we look at what SBA was able to do and what their 
CFO came back and said, is they talked about sometimes agencies 
right now are going to USAspending today to get information 
about their own agency, because the information is siloed, they 
can't get to it by themselves.
    The SBA pilot, I think, proved the concept that when you 
bring this data together and you do presentation, you can get 
much more granular information, much better information across 
the enterprise.
    Mr. Hurd. And was that SBA pilot just for--limited to 
grants, or have we tested--have we done a test for contracts as 
well?
    Mr. Lebryk. It was initially limited, and we expanded it 
further into the portfolio. So they do have more than just 
grants and that we--we piloted.
    Mr. Hurd. So when is the centralized broker service going 
to be finalized?
    Mr. Lebryk. So we are expecting to have--I mentioned it was 
a prototype broker. We're expecting to have a beta broker this 
summer and we are expecting to have the production broker in 
the fall, early fall.
    Mr. Hurd. So we should be able to start seeing more bulk 
data on USAspending in the fall?
    Mr. Lebryk. I would say that we are more likely to see it 
in May of 2017, because I think what you're trying to do 
between now and then is make sure that you're comfortable with 
the quality of data, you're making sure things are functioning 
the way that they should.
    Mr. Hurd. Gotcha.
    I yield back the time I do not have.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Ms. Sager, what's your understanding of what the objective 
was when Congress passed the DATA Act? What were we trying to 
achieve?
    Ms. Sager. The DATA Act has several purposes, as you know, 
and it's to increase transparency over spending, improve data 
quality, and to provide information on the full Federal 
spending life cycle for grants, contracts, and loans.
    Mr. Connolly. In a way that we didn't have before.
    Ms. Sager. Exactly.
    Mr. Connolly. And you would concur, Mr. Mader, with that?
    Mr. Mader. Absolutely.
    Mr. Connolly. Okay. So given that, one of the things GAO 
found was deadlines may nonetheless be missed 2 years after 
passage. How concerned are you, Mr. Mader, with deadlines being 
missed?
    Mr. Mader. So I think that the readiness reviews that we 
started last week and then the finalization of the guidance and 
the schema will allow agencies to lock down their 
implementation plan.
    I would suspect come the end of July, August, I could 
probably say with a certain amount of certainty this number of 
agencies are surely going to make it, and these are--you know, 
these may be not going to hit that exact date, but I couldn't 
tell you today that all 24 of those major agencies are going to 
make it.
    Mr. Connolly. Well, I'll tell you what, I think all four of 
us would love to have that report by August, so even though 
we're not in session in August, some of us will be around, and 
I think all four of us would welcome your getting that to us so 
we can just monitor how's it going.
    Mr. Mader. Yeah.
    Mr. Connolly. Speaking of implementation plans, what's your 
guess, because that was a milestone, you know, self-set, right? 
So what is our expectation of how many agencies are going to 
meet that goal of having an implementation plan by a date 
certain in the summer?
    Mr. Mader. So everybody has an implementation plan. Those 
implementation plans were submitted late in the summer, those 
were the plans that GAO reviewed and commented on in their 
report, but going back to last summer, we didn't have the final 
data schema then to actually look at and say, okay, now I 
understand we have the data elements, as Chairman Hurd said, we 
now have the data schema, we have the enhanced guidance, and 
now what they need to do is look at their environment, their 
specific environment, and understand what interfaces they need 
to make within systems and what data they need to clean up. One 
of the----
    Mr. Connolly. I'm sorry. If I'm a citizen watching what you 
just said, I haven't got a clue what you just said.
    Does--everyone submitted an implementation plan that was a 
draft.
    Mr. Mader. It was a draft last summer, correct.
    Mr. Connolly. So when do we finalize those plans so that we 
now get to implementation?
    Mr. Mader. So those plans will--I would guess that those 
plans will be finalized in the late June, early July timeframe, 
because one of the systems that all the agencies need to update 
is the financial management system, because that's the 
authoritative source.
    We have three predominant software providers. They're in 
the process now of designing the patches that they need to 
make. So once we have the design of the patch, the agencies can 
finish their plan, because there are going to be interfaces 
between some of these systems, and then, you know, we can go 
into full implementation.
    Mr. Connolly. Okay. So next step is finalizing 
implementation plans that were drafted last year----
    Mr. Mader. Yes.
    Mr. Connolly. --because of all the things I can't repeat 
you said, and then we get on to actual implementation?
    Mr. Mader. Yes. Absolutely.
    Mr. Connolly. And then we monitor how well we're 
implementing after that?
    Mr. Mader. Right.
    Mr. Connolly. Okay. And we hope to be able to say we're 
doing that, by and large, starting around August, September?
    Mr. Mader. Correct.
    Mr. Connolly. Okay. Good.
    One of the other concerns GAO had was we may end up, with 
the best of efforts notwithstanding, with nonuniform reporting 
standards. Is that a concern to you, and what are we doing to 
make sure that's not the outcome?
    Mr. Mader. So the additional guidance that we put out in 
December and the additional guidance, which everybody has, it's 
just going through the OMB clearance process. The additional 
guidance that goes out formally in another week or two will 
reemphasize the importance of adhering to not only the 57, but 
the additional data standards.
    Because I think in GAO's testimony, they point out, and 
rightfully so, even though we've defined a data element in a 
certain way, agencies are not necessarily all the time 
interpreting it correctly. So it's going to be, you know, a 
continuous process of just monitoring what agencies are doing.
    Mr. Connolly. Well, does it also involve some guidance from 
your office?
    Mr. Mader. Which is the guidance that I mentioned has 
already been out there in draft, and it will be final----
    Mr. Connolly. So if you're noticing real very--I mean, you 
know, somebody might say po-tah-to and somebody might say po-
tay-to, that's one kind of reporting variance, but if 
somebody's talking about potatoes and someone else is talking 
about, you know, asparagus, we've got a problem, because we're 
not speaking the same language, we're looking at different 
things. So presumably part of your role is to catch that early, 
OMB's role, so that we're avoiding that as much as we can?
    Mr. Mader. That's correct. And I want to emphasize what 
Dave said. 18 of those agencies brought real data in, it wasn't 
test data, it was real data that they brought in to the broker, 
and they actually, some of these agencies, walked away and say, 
wow, we have a lot of work to do over the next couple of months 
to clean up our data.
    So not only did it help us validate as a proof of concept, 
it actually helped them then to start identifying things that 
they need to do with their data systems.
    Mr. Connolly. My time is up. And, Mr. Chairman, I want to 
thank you and my colleagues for doing this.
    I just want to say to the panel, you know, this is not the 
sexiest of topics, apparently. Witness the press table. Lonely 
man. There he is. God bless him. And he--he will find 
redemption. What? And one over there. Sorry. Sorry. Two.
    But this is the kind of initiative that actually can be 
transformative for government, can save lots of money, can make 
us more efficient, make us more effective, free up resources 
for the mission, and make people feel better about actually 
their core mission and what they're doing, so thank you. And we 
want to work as a team to try to make sure it happens and 
happens well. And the four of us will stay on it. So we look 
forward to your report to us, Mr. Mader, in August.
    And, Mr. Chairman, we may want to consider another hearing 
in September. I thank my colleague.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes himself for a series of questions.
    So, Ms. Sager, as you look at this particular program, what 
would you say is the most critical missing element that is out 
there? I know you've got a wide breadth within your report on 
what you've acknowledged, but what's the most critical aspect 
that we're missing?
    Ms. Sager. There are actually a couple of things that we've 
highlighted in our report, and I'll just emphasize them 
briefly. First is the data standards themselves. As we have 
heard, the data standards do exist, but agencies may still 
interpret them differently.
    We used a couple examples in our January report, award 
description and primary place of performance, which can mean 
very different things, and our prior work on USAspending showed 
that it does, in fact, mean different things to different 
agencies. So the standards and the forthcoming guidance, we 
can't emphasize enough that it needs to be paired with a 
technical guidance with the technical schema so that agencies 
know what they have to report, how they have to report, and 
when they have to report. So those are a couple of the critical 
areas.
    And then for the pilot, as we noted in our report, the 
grants pilot appears to more or less be on track. We do have 
concerns about the procurement pilot, and that begins with kind 
of all the basics about the leading practices for effective 
design of a pilot, what's your hypothesis, what are you 
measuring, how are you measuring it, how are you going to know 
if you've achieved success. I think if you put all of that 
together, it's kind of a couple of critical links that are key 
to effective implementation.
    Mr. Meadows. All right. So, Mr. Mader, let me follow up on 
that, because we're having this hearing today because I left 
the last hearing, hearing from you and Mr. Lebryk on the 
progress we were making, and ended up giving a speech to people 
who really knew about the implementation of the DATA Act. And 
so I went away feeling real good based on your last testimony 
only to find out that the devil in the detail perhaps is not as 
glowing as it was portrayed to be.
    And I'm going to say this in the kindest way that I can. 
You and I go way back, and I remember you--I know your first 
hearing was on GSA properties, and I told you you were given a 
pass, I like you, you're an engaging kind of guy, but let me--I 
need you to respond to this.
    There is the comment out there that OMB is going through 
the motions with some of these agencies, allowing them to take 
data and just move it from one reporting system to another 
without really changing the quality of the data. The 57 
components are treated by OMB as 57 suggestions, not 57 
requirements.
    How do you respond to that, because that's--that was the 
question I had to respond to, and I didn't have the answer, so 
I'm hopeful that you have the answer so I can go back and share 
it with the stakeholders.
    Mr. Mader. So let me start with the 57 data elements. Those 
are sort of in our policy guidance now, so----
    Mr. Meadows. Is it a requirement or not? Yes or no?
    Mr. Mader. Oh, it is a definite requirement.
    Mr. Meadows. All right. So you believe that the statute 
requires those 57----
    Mr. Mader. Right. And we spend----
    Mr. Meadows. Because there are some people out there that 
say that you think that it's only 11. So your sworn testimony 
is the 57 are required?
    Mr. Mader. Oh, absolutely.
    Mr. Meadows. Okay.
    Mr. Mader. Absolutely.
    Mr. Meadows. Go ahead.
    Mr. Mader. And then that's what--I think if you go back to 
my testimony from last July, that's what we said----
    Mr. Meadows. I just want to clarify. I'm just saying 
there's something between your testimony and the implementation 
thereof that we're missing, and I'm not sure what level that's 
at, but some people are getting conflicting reports. So go 
ahead.
    Mr. Mader. So--well, the other point I'd like to make, Mr. 
Chairman, is, as Chairman Hurd mentioned when we were here last 
summer, we said we would be done by the end of August, and we 
were done. So----
    Mr. Meadows. Done with which part?
    Mr. Mader. With the 57 data----
    Mr. Meadows. Right.
    Mr. Mader. --elements.
    Mr. Meadows. It was----
    Mr. Mader. --you know, and people are starting to use them 
in their system. I think that should give you confidence that 
when we make a commitment, we're going to fulfill that 
commitment.
    Mr. Meadows. All right. So how do you respond to the second 
part that we're not just--so let me ask you this. Are you 
taking information from legacy systems and bringing it over and 
saying, okay, this is corrupt data, you know, it meets this 
sort of guideline, and allowing yourself to put it in a 
different format? How do you reconcile the two?
    Mr. Mader. So you think about several different--and Dave 
mentioned seven different files, but what I want to focus on is 
basically three data sources. One is the financial data system, 
right? These are the systems that actually are audited every 
year. We have a high degree of confidence in the quality of the 
data that's in the financial system. So the financial system is 
the system of record that's going to be used heretofore for 
current U.S.--it's being used now for USAspending. It will be 
used to enhance, as you said, when we start displaying the full 
government spend. So I have 99.9 percent confidence in that 
financial data.
    The other system of record that we're going to be using is 
the procurement and contract system. And my colleagues both in 
GSA, as well as the Office of Federal Procurement Policy, have 
been working for the last couple of years and have had an 
extensive program of cleaning up the data in that system. So 
you're going to bring these two data----
    Mr. Meadows. So how do you do that without guidance, you 
know, because here's the interesting thing is you've continued 
to offer guidance, and went and looked at some of the budgets 
for the different agencies on how they're going to--and it's 
all over the place, I mean, you know, in terms of some agencies 
asking for a whole lot of money to implement, some--and I can't 
find any rhyme or reason in terms of where the numbers would 
come--from a business standpoint.
    Mr. Mader. Right, right.
    Mr. Meadows. I mean, you know, big agencies asking for big 
dollars, big agencies asking for very little dollars, small 
agencies asking for a huge number. I mean, there is no rhyme or 
reason. So how do they do that without real complete guidance 
from you and Treasury on what is going to be required?
    Mr. Mader. So I'd go back to we have had complete guidance 
out there, it might not have been the final version, but it was 
close to the final version, for months now. So people have been 
commenting, but----
    Mr. Meadows. So there hasn't been a wink and a nod that 
just says, get this information so we can comply to the DATA 
Act without really changing anything by anybody on your staff 
to your knowledge?
    Mr. Mader. It's not coming from me, it's not coming from 
OMB.
    Mr. Meadows. Are you aware of----
    Mr. Mader. I am not aware of any, no.
    Mr. Meadows. Is that the first time you've ever heard that 
accusation made about OMB?
    Mr. Mader. That surprises me, sir.
    Mr. Meadows. Okay. So it's the first time you've heard it?
    Mr. Mader. Yes, sir.
    Mr. Meadows. All right.
    Mr. Mader. So let me go back, though, why there's a 
variance in request for funding both in 2016, 2017, because--
and let me use the financial system as an example and touch on 
SBA, because we used SBA sort of as the early proof of consent.
    SBA over the last couple years actually had built a totally 
integrated system, so their financial system is totally linked 
with their contract system as well as with their loan system. 
Now, compare and contrast that to a place like DHS that has 20 
some odd financial systems.
    So what's driving a lot of the cost of implementation is 
the state of their legacy systems. We have systems that are 
totally, you know, integrated and upgraded, like Small 
Business, like National Science Foundation, like the Department 
of Energy, but then we have legacy systems stretched across 
some of the bigger departments. That's why you see that 
variance in requests for funding.
    Mr. Meadows. Really? Because I'm going to go back and look 
at that. I don't know that that's totally accurate, but that's 
the new realm of thinking.
    I'm out of time, and I want to be sensitive to the ranking 
member, Ms. Kelly, so I'll go ahead and recognize her. We will 
have a second round after Mr. Grothman.
    Ms. Kelly. Thank you, Mr. Chair. Mr. Lebryk, I understand 
that Treasury has released multiple versions of the DATA Act 
schema for testing for a final release.
    Can you explain the significance of the schema and when it 
is expected to be completed and released?
    Mr. Lebryk. So when you look across the Federal Government, 
you have enormous different kinds of systems, and you have 
information that resides in lots of different places. So one of 
the things that we did in the Program Management Office was to 
help give a blueprint to the agencies about how they can map 
those 57 data standards and sort of show and identify where the 
authoritative source of that information is and then extract 
that information. And that's what the schema is about.
    It's about taking those 57, in addition to some other data 
elements and describing to the agencies how they have to 
arrange that information, how they have to orient it to make 
these three files or seven files, depending on how you want to 
look at it, that they can then report into the broker. So the 
schema really is about which elements you're going to report, 
how you're going to organize those elements, and in what format 
you're going to submit them to Treasury.
    Ms. Kelly. Thank you. Mr. Mader, your testimony explains 
that Congress appropriated one-third of the amount requested in 
the President's fiscal year 2016 budget request for DATA Act 
implementation. Can you explain the impacts on implementation 
of these short falls?
    Mr. Mader. I think if you go to the GAO report and 
testimony, I think they do a good job of raising, through the 
review of the implementation plan, the concerns that agencies 
have in resource constraints that they have been subject to in 
2016, and we don't know obviously where in 2017 the President's 
budget is going to go. What it has basically caused agencies to 
do is to reprioritize other initiatives. For example, I also 
work on moving agencies to administrative shared services. 
There's a lot of work that needs to be done by an agency to 
prepare to move to another service provider. Those are the 
kinds of initiatives that we have actually had to slow down to 
redirect resources to implementing the DATA Act.
    I think it's important to note you haven't heard OMB. You 
haven't heard the administration say at all since the beginning 
that we're not going to implement the DATA Act, that we are 
moving as fast as we can in making tradeoffs in order to move 
forward.
    Ms. Kelly. Well, I hope we can do our part to make sure we 
successfully support you or support you so you will be 
successful.
    The DATA Act requires the Secretary of the Treasury and the 
Director of OMB to consult with public and private stakeholders 
to establish the new data standards required under the Act. Ms. 
Sager, do you agree that stakeholder engagement is important to 
the full and effective implementation of DATA Act and why?
    Ms. Sager. Absolutely, and we are aware that there has been 
extensive stakeholder communication to date. Part of what we 
are talking about in some of our GAO recommendations is the 
importance of that stakeholder communication being two-way 
communication; in addition, the importance of documenting and 
widely distributing that communication. So, for example, 
although it may be very valuable for those at a particular 
conference to hear from OMB and Treasury officials, certainly 
there's a much broader community that would benefit from 
knowing about some of the challenges that are faced by 
agencies, what the plans are going forward for implementation, 
and then making sure that that information is shared, 
particularly as we head toward a change in presidential 
administration.
    Ms. Kelly. Mr. Mader, during the last hearing you 
identified ways OMB and Treasury have engaged in outreach with 
stakeholders, a critical piece to your efforts to reform 
Federal spending data. What are your future plans to engage 
with stakeholders outside of government?
    Mr. Mader. Congresswoman, I think we're committed to 
continue the kind of outreach that--I mean, I don't think a 
week goes by that Dave or I are not out speaking at some 
conference with stakeholders, external stakeholders, about the 
DATA Act. As GAO has testified in the past, all the work that 
we have been doing actually is posted on our external facing 
Web site. So people have the opportunity to see what we're 
doing and to also comment on it.
    Ms. Kelly. Some of the stakeholders have called on Treasury 
and OMB to go beyond the statutory provisions to consult and to 
fully collaborate with Federal and non-Federal stakeholders. Is 
there a forum for Federal stakeholders to collaborate with each 
other and share best practices?
    Mr. Mader. So for the Federal stakeholders, there are a 
couple of forums. Dave and I chair an Executive Advisory 
Committee. We also chair an Interagency Advisory Committee 
where we have representatives from various departments and 
various communities.
    We have folks from the contracting profession, from the 
grants profession, from the financial profession. We also 
interact with the various councils. I'll give you an example. 
This afternoon while we're here, there is a CFO Council 
meeting, so if we get done early enough, Dave and I will 
probably go back and talk about the hearing. So we use those 
kind of standing forums to communicate with folks. I mean, I 
would be shocked if a Federal agency said they really haven't 
heard from the OMB and Treasury. That would mean they were 
probably sleeping.
    Ms. Kelly. You know, the Sunlight Foundation has said in 
order to truly engage DATA Act stakeholders and the public, 
that Treasury and OMB must conduct their policymaking process 
in an open and transparent manner. So I yield back the time I 
don't have.
    Mr. Meadows. I thank the gentlewoman. Before I recognize 
Mr. Grothman, which I intend to do, Mr. Peckham, it's real easy 
for us to start focus, and you haven't had any questions, but I 
want to say that's most of the time a good thing in this 
committee. And so by saying that, I want to recognize the great 
job that you and your team have done with regards to the pilot 
and really taking this thing seriously on the grant side of 
things. It's very easy to condemn and point out the things that 
are not going right. And so I want to just say thank you. You 
may get some questions, but keep your head low.
    So Mr. Grothman, I'll go to you for 5 minutes.
    Mr. Grothman. Sure. I hope we don't cover old ground here, 
but I'll start off with Mr. Mader. First of all, I want to make 
sure that in your mind the DATA Act applies to all Federal 
agencies, and cover everybody?
    Mr. Mader. Yes, sir. It covers all Federal agencies who 
have appropriations, yes.
    Mr. Grothman. Okay. Could you, just to clarify things, 
eventually provide the committee with a list of agencies that 
is you feel broken out that it covers?
    Mr. Mader. Absolutely.
    Mr. Grothman. Have all these agencies submitted 
implementation plans to you guys already?
    Mr. Mader. I don't believe some of the smaller commissions 
have submitted plans. We're in the process, and it's timely 
that you ask for the list of finalizing who we believe under 
the statute is covered. And I think it's important to, not only 
to sort of capture the total, but also to put it in the 
context.
    The 24 CFO Act agencies, the ones that we have been 
interacting since day one, represent 90 percent of the spend 
that we're talking about. So we're going to have in the DATA 
Act when we go live, at least 90 percent of the total 
government spend. You know, whether we get every last 
commission to that place in May, again, let's see what goes on 
over the course of the summer.
    Mr. Grothman. Maybe it would be a good idea, not just for 
us but for your own benefit, if you provide a list of the 
agencies that you feel the status is of each of the agencies, 
and then you can kind of know and they can judge themselves 
where they are compared to the other agencies whether they're 
up to speed at the appropriate time.
    Mr. Mader. We will.
    Mr. Grothman. Okay. Thanks. Ms. Sager, can you just in 
general give us your opinion of the role that the OMB and 
Treasury have in addressing these challenges, or how they're 
helping agencies?
    Ms. Sager. OMB and Treasury are charged with leading the 
DATA Act implementation effort, and so they are responsible for 
providing the guidance, for providing what we refer to as kind 
of the governance structure, for how this is going to happen, 
for memorializing changes as they occur, and for developing the 
technical schema that brings all of the data together.
    Mr. Grothman. Okay. Thank you. Just in general, Mr. Mader 
and Mr. Lebryk, how have your agencies made use of the 
information that's been forwarded to you so far? What do you do 
with it? I guess Mr. Mader is always on the spot, so we'll go 
with Mr. Lebryk.
    Mr. Lebryk. One of the things that Dave and I hold a 
monthly senior accountable officials call with the agencies. So 
we have identified in each of the agencies a senior accountable 
official who is responsible for making sure the DATA Act 
information is flowing right in the organization and getting 
implemented correctly.
    In addition, I have mentioned this PMO, the Project 
Management Office, we hold--or the program management office--
we hold office hours on a regular basis. We hold webinars where 
we hold--a question had come up earlier about our outreach to 
States. We hold a monthly call with State and local officials 
to give them feedback on where we are and updates on where we 
are. If you ever meet the people in the PMO, they're just 
enormously energetic and committed to what we're doing. And I 
think it's because if you are kind of in this area of data, 
this is really kind of a great place to be right now because 
you can see the difference you're going to be making across 
government.
    So they're very active and aggressive in going out and 
talking to the agencies on a regular basis to make sure that 
we're keeping them up to date and giving them the opportunity 
to ask questions. They're the ones who have been holding the 
sandbox sessions with the agencies, and we're hopeful, when we 
get to the broker, the beta broker, that agencies will actually 
be able to do that from their agency, rather than having to 
come to Treasury to do that information, so that there will be 
more realtime feedback and better to work with our data sooner.
    Mr. Grothman. Okay. In general, a couple agencies have 
mentioned, you know, lack of resources. Of course, everybody 
always talks about lack of resources. But do you feel that's a 
valid complaint, or do you feel you're able to leverage 
additional resources and that won't be a problem?
    Mr. Mader. As I mentioned to Congresswoman Kelly, I think 
we're committed to implementing this, and we're trying the best 
we can to reallocate and redirect resources.
    Mr. Grothman. Okay. Thank you. One final question. How 
frequently are you going to ask the agencies to update their 
implementation plans? I guess another way of saying that is how 
often do you check in with them and make sure they're on 
schedule?
    Mr. Mader. So because of the, sort of the place where we 
are with the implementation schedule, as I mentioned, we're 
going to receive the updated implementation plans, so let's say 
in the June, July, timeframe, which we will provide to the 
committee a summary. What we're also going to do is actually 
implement a monthly dashboard where we're going to require 
agencies to report in to us against the timelines that they 
have in their revised implementation plans.
    So we'll be able to monitor between now and the first of 
the calendar year, and then through May of 2017 the status of 
each of these. I mean, it's not like Dave and I are absentee 
landlords. We're talking to these folks all the time.
    Mr. Grothman. Thanks. Very informative.
    Mr. Meadows. I thank the gentleman. The chair recognizes 
the gentleman from Texas, Mr. Hurd, for a second round.
    Mr. Hurd. Thank you, Mr. Chairman. Mr. Mader, correct me if 
I'm wrong, or if you don't want to throw people under the bus, 
you can just blink twice. What I bet you is probably happening 
is, the fact that Treasury is doing these agile developments, 
right, so you have the versions, different versions of the 
schema, and you have interim guidance. I bet you there are some 
agencies that are using the fact that it's interim guidance to 
not implement or not begin implementation--and so was that two 
blinks? Did you just blink twice? I'm joking.
    So what I would like to see is if we do another hearing on 
this, let's start bringing some of these agencies that are 
responsible for doing this, because guess what? You have 
guidance on what those 57 data elements are. They can start 
mapping their information to those 57 data elements. The 
agencies can start linking their financial systems to their 
award systems. All right. You don't have to have the final 
guidance. So I would be interested in if you could provide to 
this committee the agencies that have been to the sandbox and 
used their system, and then also let us know which agencies 
haven't been to the sandbox. Because you all shouldn't have all 
the fun in sitting here and answering these questions. We 
should be bringing some of these agencies and let them know 
that, you know, we're going to hold them accountable for 
implementing this.
    You all are providing the guidance. You all are providing 
interim guidance to help them move along so they don't have to 
do everything at the last minute, and if they're not taking 
advantage of it, the problem is on them.
    All right. So this is something that I would think we do, 
Mr. Chairman, in September. And also I'd like to know if you 
haven't already provided this to the committee, the list of all 
the officials that's responsible for the DATA Act 
implementation, whether it's the CIO or the CFO, so we know 
who's responsible, and so if we're not seeing movement at that 
agency, we know who we can call and have sitting right here.
    Mr. Mader, you look like you want to say something.
    Mr. Mader. Yeah, I want to reassure both subcommittee 
members, there isn't an agency that has come to us and said 
they're not going to be able to implement. They haven't come to 
us yet. So I don't think anybody is deliberately slow rolling 
us in the implementation. I think there are challenges, and I 
think that agencies, depending on their size and complexity, 
are starting to realize the list that they have between now and 
next January, to really get ready with the second-quarter data, 
which is the quarter of data that's going to be voted in May of 
2017.
    One of the reasons that Dave and I decided to go out and do 
these readiness reviews is it's easy to just send emails back 
and forth with people. I think it's more effective when you sit 
across the table of other senior executives and you look them 
in the eye and you sort of go over their plan and ask them, are 
you going to make it? And what I've been saying to agencies for 
the last several months is, if you're not going to make it, 
then what you need to do is have your cabinet Secretary write 
to Sean Donovan and tell him, and then we'll have a meeting.
    Mr. Hurd. Mr. Mader, I apologize for cutting you off. But, 
listen, you have, Treasury has done the program, Management 
Office, you're holding these conversations, but at this point, 
and, Ms. Sager, I'd be interested to know who's mistaking what 
those data standards actually mean, because this is as simple 
as picking up the phone and calling one of you all and saying, 
hey, does this mean X or does it mean Y?
    And so getting to a point, I don't think any agency 
should--it should be unambiguous at this point now that all 57 
data standards have been outlined, and you all are open, and 
you have people that are willing to help these agencies with 
implementation.
    So, Ms. Sager, if it hasn't been identified, I would like 
to see a list of those agencies that are still a little 
confused on what those 57 data elements are supposed to be.
    Ms. Sager. And I would just say that based on our prior 
work on USASpending, one of the things we discovered there is 
although agencies may think they fully understand the 
definition, it's once they implement submitting data and 
they're doing it differently, they're trying to make those 
cross-agency comparisons, that's where it becomes clear that 
what you thought was a shared understanding of a definition, 
upon implementation it then becomes clear that that shared 
understanding may have been different given the breadth of the 
Federal Government.
    Mr. Hurd. And my last question--I don't know if this is 
best for you, Mr. Lebryk, or you, Mr. Mader--have agencies made 
adequate progress on linking their financial and award systems 
in order to meet the DATA Act requirement?
    Mr. Mader. Let me start, and I'll ask Dave if he wants to 
add. I think that, as I mentioned, one of the advantages that 
we have is we only have three predominant software providers 
for financial management. They're in the process now of 
working, as I mentioned, on those patches. Putting the award 
data into the financial system, you know, that's been a guiding 
principle since day one. So agencies are working on that. They 
didn't need additional guidance to actually move out on that.
    And again, we want to see the revised implementation plans 
because we have actually given them--basically Treasury 
developed an implementation roadmaps that takes us from where 
we are to May of 2017, and with critical milestones. And what 
we're asking the agencies to do is take that template and 
actually put your critical milestones over the top of that. So 
we'll be able to see come December where there is a disconnect 
from a timing standpoint.
    Mr. Hurd. Mr. Chairman, I'm sorry. My last quick question. 
This is easy for a yes or no to the gentlemen at the end of the 
table. Mr. Lebryk, has Treasury mapped its data to the 57 
elements?
    Mr. Lebryk. Treasury is right on progress.
    Mr. Hurd. Excellent. Mr. Peckham, has HHS?
    Mr. Peckham. We are very close.
    Mr. Hurd. Excellent. Thank you. I yield back.
    Mr. Meadows. I thank the gentleman. Chair recognizes Ms. 
Kelly for a second round.
    Ms. Kelly. I know we asked about resources, and sometimes 
people just think about money, but do you feel across the board 
there are enough skilled people or people to get the work done?
    Mr. Mader. I think that when we talk about resources, we're 
talking not only about dollars, but we're talking about human 
resources. And, you know, with this particular initiative, this 
is very technical, I think, as Chairman Hurd will appreciate 
when he sees some of the detail. We don't have all of the 
Federal resources. That's why we rely on our partners, 
contractors to bring in those additional resources. When 
budgets are constrained, it constrains how much we can bring in 
from the outside. So, again, it's a challenge, but we haven't 
let anybody off the hook.
    Ms. Kelly. Thank you.
    Mr. Peckham, I really appreciate the work that HHS has put 
into piloting the implementation of the DATA Act. Your 
leadership and the hard work of your staff has set 
implementation off to the right foot, as you said. I would like 
to discuss your successes in implementing the grant portion of 
the pilot. How have you been able to do so much progress in 
designing and preparing for testing the grant portion of the 
pilot?
    Mr. Peckham. Thank you, first of all.
    We at HHS take this very, very seriously. We understand 
that there are a lot of benefits to be gained, not only for the 
grantees, but for the Federal Government, and we believe that 
if we can lead by example and establish some efficiencies 
within our processes and pass those on to the grant recipients, 
there is a win-win situation for both areas. And that is 
generally the approach. I'd also like to recognize the staff 
that I work with. They are very committed. We have folks from 
different areas throughout the Department, from different 
business lines, and we are working in a collaborative fashion 
to make sure that we understand where we need to go and finally 
engaging the public as much as we can.
    Ms. Kelly. The GAO report concluded that the grants portion 
of the pilot will meet the requirements of the DATA Act if 
implemented according to HHS' proposed plan. What expectations 
does HHS have for the outcome of the grant portion of the 
pilot?
    Mr. Peckham. We are hopeful that all six models are 
successful and that we can find efficiencies from them that we 
can recommend and then report to OMB and Congress and see what 
action can be taken.
    Ms. Kelly. Okay. Thank you.
    Ms. Sager, thank you for being with us today. According to 
the recent GAO report, the design of the procurement portion of 
the pilot will not meet the DATA Act requirements. What are the 
potential consequences of the procurement portion of the pilot 
not meeting the specified DATA Act requirements?
    Ms. Sager. I would mention a couple of things here and also 
point out that as OMB has defined it, the Section 5 pilot 
consists of the two portions, so it is the grants portion and 
the procurement portion, both together to meet the requirements 
in the Act itself. Given that, the procurement pilot 
particularly, I think one of the things that is unclear is the 
extent to which the dollar amount will be specified and met by 
the procurement portion of the pilot as you saw it in the 
written statement. It is a fairly narrow portion of the pilot 
given its focus on certified payroll. That may provide 
informative information. At this point, there was not enough 
information available in the plan itself for us to fully 
understand how the procurement portion of the pilot contributes 
to meeting the specifications in the Act itself.
    The other thing is the diversity of pilot participants. 
Again, it was not entirely clear how that particular 
requirement in the Act would be met by the plan, or by the 
pilot, as it is currently specified. We understand this is a 
work in progress, but we look forward to learning more about 
that so that we can understand how this portion of the pilot 
also contributes to scaleability. Given its narrow focus, it's 
important to know that the evaluation and the lessons learned 
from this portion of the pilot do have broader applicability to 
the procurement community.
    Ms. Kelly. Mr. Mader, how do you respond to the concerns 
raised?
    Mr. Mader. We accept the criticism that GAO has documented 
around the procurement pilot. We're in the process of 
replanning that effort to ensure that the necessary methodology 
documentation is in place, and we will work with GAO on that. I 
think it's important though to also recognize that long before 
there was a DATA Act, the Office of Federal Procurement Policy 
actually has been working on reducing contractor burden. I know 
Congressman Connolly knows this market very, very well from 
being in Northern Virginia. I don't think a day goes by that my 
colleague Anne Rung doesn't hear from the Professional Services 
Council, around things the government can do to reduce the 
burden that we put on doing business with the government. Our 
commitment is to come back with a replan in the next 45 days so 
that we can assure ourselves and you that we'll meet all of the 
objectives of the DATA Act.
    Ms. Kelly. Thank you. And I yield back.
    Mr. Meadows. I thank the gentlewoman. So in 45 days, you're 
going to come back to this committee with a revamp of what you 
plan to do on the procurement side of it. Is that what I heard?
    Mr. Mader. Yes, sir.
    Mr. Meadows. Okay. So how did we end up with such a narrow 
scope? You've got Mr. Peckham, whose expertise is not this 
particular area, yours, Mr. Mader, where it is your area, and 
he is working on six. You're working on one. But it's not even 
just one. It's one narrowly tailored to include Davis-Bacon. 
How in the world did you come up with that as a criteria?
    Mr. Mader. So we, as I mentioned, we have been working on 
burden reduction for contractors for several years, and there 
were several----
    Mr. Meadows. How is that working? If I were to ask the 
general population that Mr. Connolly has the privilege and 
honor of serving, would they say that you're getting an A or on 
the other end of the spectrum?
    Mr. Mader. I think they would comment, as my colleagues in 
GAO would, like in a blue book cover is some progress but more 
work to be done. I think the community would recognize----
    Mr. Meadows. I think you're generous with your analysis, 
but go ahead. We'll leave it at that.
    Mr. Mader. I think they would recognize that we have made 
progress. They would probably say you could make more progress.
    Mr. Meadows. So answer the question. How did we come up 
with such a narrow--my understanding is the whole national 
dialogue, you got three responses originally from a contractor, 
three contractor responses. None of them referenced this, but 
yet you picked this.
    Mr. Mader. Because of the work that we had done previously 
with the community.
    Mr. Meadows. So what you're saying is you did a pilot based 
on work you had already done, because I don't think that's what 
we wanted?
    Mr. Mader. So we felt, we feel that the pilot as it's 
currently scoped, using wage reporting for Davis-Bacon, and for 
folks in the audience that don't understand the size of that, 
so any Federal funds over $2,000 that are used in construction 
or renovation are subject to Davis-Bacon.
    Mr. Meadows. I understand. But we're talking about 
certified payroll. Again, we're talking about a narrow scope 
within a narrow scope. So it may be big in the universe of 
those that qualify, but we have narrowed the scope. And I think 
you've just admitted under testimony that it may not be a 
meaningful pilot. Would you agree with that?
    Mr. Mader. No, I would not agree with that.
    Mr. Meadows. So you disagree with GAO that it's meaningful 
in all respects to what the DATA Act was seeking to find out, 
that it will provide enough meaningful data that you will be 
able to implement the DATA Act properly?
    Mr. Mader. We believe we can.
    Mr. Meadows. So you do disagree with Ms. Sager?
    Mr. Mader. Right, yes.
    Mr. Meadows. But your testimony a few minutes ago was that 
you agreed with her and that you were going to revise this in 
45 days.
    Mr. Mader. What I agreed, Mr. Chairman, was that we did not 
do a good job of documenting our methodology and our approach.
    Mr. Meadows. All right. So you're suggesting that this 
narrow, tailored, pilot is indicative to make informed 
decisions across, all Federal agencies on procurement. That's 
your testimony here today?
    Mr. Mader. With regard to this particular area of focus. 
And as GAO has testified, there's two components of this that 
need to be better actually put together.
    Mr. Meadows. Ms. Sager, would you like to have seen more 
inclusive on the procurement side in terms of a pilot? Would it 
have helped you to identify the strengths and weaknesses by 
having a broader scope?
    Ms. Sager. If the pilot had broader, certainly that would 
have given us a better indication of how this would apply to 
the procurement community more broadly.
    Mr. Meadows. So do you have doubts that with the narrow 
scope of the procurement pilot, that we may not be able to make 
the best informed decisions in terms of the general procurement 
side of the implementation of the DATA Act?
    Ms. Sager. Based on what we have seen to date, we are 
unable to take the limited documentation that we have to 
understand how certified payroll narrowly has lessons to be 
learned for the entire contracting community.
    Mr. Meadows. All right. So here's what I would ask you, Mr. 
Mader, since you're going to revisit this in 45 days or get a 
plan back to this committee, is how we can potentially expand 
the scope. I think you've already said on the pilot program 
you're going to miss the deadlines. Is that correct? I think 
that was in your earlier testimony, maybe not?
    Mr. Mader. No, it wasn't.
    Mr. Meadows. Okay. Are we going to have a full year's worth 
of data from the pilot program?
    Mr. Mader. That's why we're going to go back and take a 
look at our plan, so I don't know.
    Mr. Meadows. Okay. All right. Well, here's my request of 
you. We want a full year's worth of data, even if it's going to 
take you beyond the original target date, because less than a 
full year's worth of data is meaningless in terms of really 
making informed decisions. Does that make sense?
    Mr. Mader. That makes sense.
    Mr. Meadows. So you can commit to the committee that you'll 
give us a full year's worth of data?
    Mr. Mader. We can, yes.
    Mr. Meadows. Thank you. All right. So let me close with one 
last area. You've been talking about the implementation plans 
for the agencies, that they've submitted these implementation 
plans. Is that correct?
    Mr. Mader. That's correct.
    Mr. Meadows. All right. Can we get a copy of those 
implementation plans from the agencies? Will you supply those 
to us? Because I'm sure those would be very informative in 
terms of the understanding of agency to agency based on those 
implementation plans.
    Mr. Mader. When we receive the revised plans, we would be 
more than happy to come----
    Mr. Meadows. You can go ahead send us the ones you have 
now. Your testimony was that you had implementation plans, and 
so obviously in the DATA Act, we're going down that you're 
making informed decisions on guidance based on those 
implementation plans, on what's in them, what's not in them, I 
would assume. Is that correct?
    Mr. Mader. No. I don't think we're making decisions based 
on the----
    Mr. Meadows. You've looked at an implementation plan for 
all the agencies, and you've made no changes in your guidance?
    Mr. Mader. No, no. I didn't say that, Mr. Chairman.
    Mr. Meadows. Okay.
    Mr. Mader. What I said is implementation plans were done 
early on last year, right, a year ago this past summer. And I 
think, as Dave Lebryk has testified, this iterative process 
allows us to have a----
    Mr. Meadows. That's fine. I guess what I'm saying is just 
send us the implementation plans as you have them, as they are 
revised and change from agencies, will you go ahead and send 
those to us as well?
    Mr. Mader. We will. We will.
    Mr. Meadows. So with that, I appreciate the specificity, 
Mr. Mader, of you answering some of the difficult questions. 
Let me share about the communication, because it's one thing to 
give a speech. It's another to have communication. Sometimes 
the only way that you get two-way communication when you give a 
speech is on the receiving end of either insult or things 
thrown from the audience. Let's hope that that didn't happen.
    But in doing that, one of my concerns is that I'm hearing 
from stakeholders that there is still ambiguity, and there is a 
lack of commitment in terms of the quality of the data. And the 
big concern that is being expressed, and so I'd like you to 
address it, not in a question and answer here, but it sounds 
like that you're serious about reaching out, that you and Dave, 
as you've said, are reaching out on a regular basis. Here's my 
ask of you, is to get with those that have, not just the 
agencies, but subcontractors, others that have to implement 
this, and ask them what are the problems. And give them cart 
blanche to be able to say, because sometimes they may not say 
it to you. They're saying it to me. Because they've got to do 
business with you, and I don't.
    And so as we look at that, if you would redouble your 
effort on a two-way communication and not allow it to go out, 
but then say, okay, based on this input that we have gotten 
from stakeholders and agencies and across the board, we are 
modifying it based on this input in this way, where they 
understand that their input is actually having a direct impact 
on you and Treasury. Now, from your testimony here today, 
you're indicating that that is happening, and I just would ask 
that you redouble your efforts there and as we look at that, go 
forward.
    If there are no closing statements, I would just like to 
thank all of you for your testimony. Thank you for your 
diligence in protecting the hardworking American taxpayers' 
dollars and transparency. If there is no further business, the 
committee stands adjourned.
    [Whereupon, at 4:02 p.m., the committees were adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
               

                                 [all]
</pre></body></html>
